                         
                         
                         
                         
                         
           Audit of NARA’s Office of
  
    Government Information Services
 
                         
                         
       OIG Audit Report No.  12­14
 
                               
             September 11, 2012
  

        
Table of Contents 

                                                                                                                         
Executive Summary ........................................................................................ 3 

 


Background ..................................................................................................... 4 

 


Objectives, Scope, Methodology .................................................................... 7 

 


Audit Results ................................................................................................... 8 

 


Appendix A – Acronyms and Abbreviations ................................................ 18 

 


Appendix B – Management's Response to the Report.................................. 19 

 


Appendix C – Report Distribution List......................................................... 20

 


Appendix D – OGIS Best Practices Chart Page 1 ........................................ 21 

 

 

 
                                                                          OIG Audit Report No. 12-14


Executive Summary

The National Archives and Records Administration’s (NARA) Office of Inspector General
(OIG) completed an audit of NARA’s Office of Government Information Services (OGIS or
Office). The Openness Promotes Effectiveness in our National Government Act of 2007
amended the Freedom of Information Act (FOIA) to create OGIS within NARA. The Office
opened on September 8, 2009.

OGIS is responsible for working with executive branch agencies and requesters to improve the
administration of FOIA. Pursuant to 5 U.S.C. § 552(h), OGIS is charged with:

       Reviewing agencies’ FOIA policies, procedures and compliance with FOIA;
       Offering mediation services to FOIA requesters and agencies and issuing advisory
        opinions as appropriate; and
       Recommending policy changes to Congress and the President.

OGIS also serves – in the words of Congress – as the nation’s FOIA Ombudsman to facilitate
communications between government agencies and the public. OGIS advocates for FOIA itself,
not for requesters over agencies, or vice-versa.

The objective of this audit was to determine whether OGIS was adequately established and was
meeting the intent for which it was established. In the absence of formal metrics directing OGIS
how to meet its statutory requirements the OIG analyzed OGIS case files, reviewed
documentation, and interviewed OGIS officials to determine if OGIS was meeting its mission by
adhering to its statutory requirements. Based on audit work performed the OIG found the Office
met the requirements of FOIA 5 U.S.C. § 552(h).

Our review identified two issues related to a lack of resources that hindered OGIS’s ability to
close cases in a timely manner and prevented OGIS from implementing a more robust review
process to better meet its mission. This report contains two recommendations designed to
improve OGIS’s ability to continue meeting the requirements of FOIA 5 U.S.C. § 552(h).




                                              Page 3
                           National Archives and Records Administration

 
                                                                                                    OIG Audit Report No. 12-14


Background

The Openness Promotes Effectiveness in our National Government Act of 2007 amended the
Freedom of Information Act (FOIA) to create an Office of Government Information Services
(OGIS or Office) within the National Archives and Records Administration (NARA). The
Office opened on September 8, 2009, with one staff member (the Director); 5 staff members
were in place by December 2009, and a full staff of 7 (from both the agency access and FOIA
requester communities) was realized by May 2010 and remained as of April 25, 2012.

Figure 1:  Timeline of OGIS’s Establishment and Milestones 



                                                                                 November 2011
                                May 2010                   March 2011                                     March 2012
     September 2009                                                             New web site and 
                           OGIS has a full staff of    The first OGIS report                            The second OGIS 
    OGIS is established.                                                        case management 
                                7 in place.                  is issued.                                 report is issued.
                                                                                system launched.




OGIS is responsible for working with executive branch agencies and requesters to improve the
administration of FOIA. Pursuant to 5 U.S.C. § 552(h), OGIS is charged with:

         Reviewing agencies’ FOIA policies, procedures and compliance with FOIA;
         Offering mediation services to FOIA requesters and agencies and issuing advisory
          opinions as appropriate; and
         Recommending policy changes to Congress and the President.

The Deputy Director of OGIS stated these mandates fall into two basic areas: (1) review of
policies, procedures and compliance; and (2) mediation services to resolve disputes between
FOIA requesters and Federal agencies.

When conducting a review of agencies’ policies, procedures and compliance, OGIS may:

    	 Conduct a detailed analysis of Federal agencies’ Annual FOIA Reports and Chief FOIA
       Officer Reports to identify strengths and weaknesses in agencies’ FOIA policies and
       procedures;
    	 Gather relevant non-confidential data through OGIS’s role in providing mediation
       services to resolve disputes. OGIS uses case-specific information only to the extent that
       it does not identify the requester and in the course of compiling data and identifying
       trends; and
    	 Work collaboratively with agencies in conducting a review of FOIA policies and
       practices, including reviewing the agency’s FOIA regulations.
                                                         Page 4
                                      National Archives and Records Administration

 
                                                                          OIG Audit Report No. 12-14



OGIS released reports in March of 2011 and 2012 detailing its activities and observations, and
made these reports available to the public on its web site. OGIS also uses the information
gathered when conducting reviews of agencies’ policies, procedures and compliance to:

       Make recommendations to Congress and the President to improve FOIA compliance and
        develop best practices in FOIA administration;
       Coordinate, support, and participate in training and informational programs to promote
        best practices in the FOIA process among Federal agencies and requesters; and
       Promote openness and transparency in government.

OGIS offers mediation services which is an umbrella term that encompasses facilitation, ombuds
services, and formal mediation.

Facilitation is used by the OGIS staff to work in a less-structured, informal manner with the
parties to find common ground to resolve disputes. OGIS assists requesters and agencies
through facilitation, for example, by helping requesters narrow the scope of their FOIA requests,
encouraging agencies to reconsider determinations to withhold requested agency records,
obtaining information related to an agency policy and/or procedure, and assisting agencies in
working with requesters.

Ombuds services occur when an ombudsman acts as a confidential and informal information
resource, communications channel, and complaint-handler. OGIS assists customers through its
ombuds services by providing FOIA requesters with resources and assistance in filing their
FOIA requests and appeals and helping them to better understand agencies’ FOIA practices.
These requesters are often uncertain about the application of FOIA and the Privacy Act when
agencies process requests for access to records. For this reason, OGIS assists Privacy Act
requesters with information about the process or status of requests because many of those
requests overlap with FOIA. In addition, OGIS also coordinates, supports, and participates in
training and informational programs for Federal agencies and requesters on using alternative
dispute resolution methods, including mediation, for FOIA disputes.

During OGIS’s first two years, no cases resulted in formal mediation, and the Office issued no
advisory opinions.

In March of 2012 the Department of Justice (DOJ) proposed a revision to one of its Privacy Act
System of Records Notices that included a description of an ombudsman function within the
Office of Information Policy that would have conflicted with the work performed by OGIS as
FOIA ombudsman. This prompted Sens. Patrick Leahy (D-Vermont) and John Cornyn (R-
Texas), the lawmakers who sponsored the Openness Promotes Effectiveness in our National
Government Act of 2007 that led to the creation of OGIS, to send a letter to Eric Holder,
Attorney General of the United States, stating, "DOJ's proposal is inconsistent with the plain
language of [the Open Government Act] and with our intent."



                                              Page 5
                           National Archives and Records Administration

 
                                                                         OIG Audit Report No. 12-14


During an interview OGIS’s Director and Deputy Director stated that OGIS’s relationship with
the DOJ could be more cooperative, but OGIS was able to work with the DOJ in order to meet its
statutory requirements.




                                             Page 6
                          National Archives and Records Administration

 
                                                                         OIG Audit Report No. 12-14




Objectives, Scope, Methodology

The overall objective of this audit was to determine whether NARA’s Office of Government
Information Services was adequately established and was meeting the intent for which it was
established.

In order to accomplish our objectives we performed the following:

     interviewed the Director and Deputy Director of the Office of Government Information
      Services;

     requested and reviewed documents compiled by the Office of Government Information
      Services;

     reviewed Office of Government Information Services case log information and 

      corresponding statistics; and 


     reviewed the applicable laws and regulations including 5 U.S.C. § 552(h) of the Freedom
      of Information Act.

Our audit work was performed at Archives II in College Park, Maryland as well as OGIS’s
location at 800 North Capitol Street in Washington, DC. The audit took place between March
2012 and June 2012. We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




                                             Page 7
                          National Archives and Records Administration

 
                                                                          OIG Audit Report No. 12-14


Audit Results

1. OGIS met the requirements of 5 U.S.C. § 552(h) of the Freedom
   of Information Act.

OGIS is responsible for working with executive branch agencies and requesters to improve the
administration of FOIA. Pursuant to 5 U.S.C. § 552(h), OGIS is charged with the following:

       Reviewing agencies’ FOIA policies, procedures and compliance with FOIA;
       Offering mediation services to FOIA requesters and agencies and issuing advisory
        opinions as appropriate; and
       Recommending policy changes to Congress and the President.

In the absence of formal metrics directing OGIS how to meet its statutory requirements the OIG
analyzed OGIS case files, reviewed documentation, and interviewed OGIS officials to determine
if OGIS was meeting its mission by adhering to its statutory requirements. Based on audit work
performed the OIG found the Office met the requirements of FOIA 5 U.S.C. § 552(h).

Reviewing agencies’ FOIA policies, procedures and compliance with FOIA

As detailed in its March 2012 report, OGIS devised methods to begin implementing its review of
agencies’ FOIA policies, procedures, and compliance with FOIA. These methods included
OGIS reviewing and commenting on proposed changes to department and agency FOIA
regulations, both by submitting public comments through NARA and by working collaboratively
with agencies before the public comment period. The OIG reviewed OGIS’s comments on the
proposed changes to FOIA regulations for six agencies and found they appeared adequate by
identifying areas where FOIA regulations should be modified before publication to comply with
FOIA requirements. In fiscal year (FY) 2011, OGIS submitted public comments to proposed
changes to FOIA regulations of the:

       Department of Defense
       Department of Justice
       Department of Transportation
       Department of Veterans Affairs
       Federal Housing Finance Agency
       Financial Stability Oversight Council

OGIS also publicly commented on proposed changes to a form used by requesters seeking their
own or third-party records from U.S. Citizenship and Immigration Services; the agency
incorporated OGIS’s suggestions. OGIS’s comments on the proposed changes to this form
improved the process requestors use to obtain information from the agency under FOIA and the
Privacy Act of 1974.
                                              Page 8
                           National Archives and Records Administration

 
                                                                          OIG Audit Report No. 12-14



OGIS’s Deputy Director stated during an interview that the results of its reviews of Federal
agencies' FOIA Annual Reports, Chief FOIA Officer Reports, and observations of agency
practices through casework can be found in OGIS’s March 2011 and 2012 reports. The OIG
reviewed OGIS’s 2011 and 2012 reports and found that they included detailed observations of
agency practices. Additionally, OGIS created a Best Practices Chart (See Appendix D) based on
the Office’s own observations and its review of all 94 reports to the Attorney General from
Agency Chief FOIA Officers. The OIG reviewed OGIS’s Best Practices Chart and notes that
OGIS continues to regularly update it.

OGIS also collaborated with the Consumer Financial Protection Bureau (CFPB) in reviewing
written FOIA regulations. OGIS shared many of its best practices with the CFPB to ensure that
the regulations were clear, explained the FOIA administrative process, and provided information
pertaining to OGIS and its services. As a result of this collaboration, the CFPB incorporated
several OGIS suggestions into its final FOIA regulations.

Finally, OGIS also stated when agencies request OGIS assistance it allows the Office the ability
to learn and review the agencies’ policies and procedures and determine whether the agencies are
in compliance with FOIA. For example, in casework reviewed by the OIG a requester contacted
OGIS and disputed the United States Postal Service’s (USPS) claim that the number of pieces of
mail sent by an election campaign must be withheld under Exemption 4 of FOIA. After hearing
from the requester OGIS opened a case and contacted USPS. USPS reviewed its response and
confirmed that it was properly processed under FOIA as per its regulations. The USPS explained
its unique role as a business as well as an agency and its need to protect data to protect its own
business interests. Therefore, the case was closed and OGIS was able to confirm that USPS
action appeared to be in compliance with FOIA.

Offering mediation services to FOIA requesters and agencies

More than 1,200 FOIA requesters from nearly every state and points around globe turned to
OGIS for assistance in its first two years as FOIA Ombudsman. Requests for help ranged from
questions about how to file a FOIA request and how to appeal an agency release determination to
more difficult inquiries about resolving disputes pertaining to specific exemption use or agency
FOIA policy.

As an example, OIG reviewed a case where OGIS received a letter in March 2010 from an
imprisoned veteran who had requested a section of a document from the Department of Veterans
Affairs (VA). The VA denied the FOIA request because the document is freely available online;
however, the customer does not have internet access at his prison facility. OGIS contacted the
VA, explained the situation, and the agency fulfilled the request. OGIS served a vital
ombudsman role by short-circuiting what could have become a lengthy series of back-and-forth
letters.

OGIS opened 764 cases in response to requests for assistance - 391 in its first year and 373 in its
second year, ending September 30, 2011. Between June 2010, when OGIS began tracking
telephone and e-mail quick assists, and the end of FY 2011, the Office also helped nearly 500
                                              Page 9
                           National Archives and Records Administration

 
                                                                          OIG Audit Report No. 12-14


callers and e-mailers. The OIG reviewed OGIS’s detailed case files for a sample of 30 cases
opened from 2009 through 2012. OIG’s review of these case files showed that OGIS followed
its general process for handling cases:

    1.	 Opening a case:

           o	 Customer describes the dispute, the assistance requested and provides any
              relevant correspondence
           o	 OGIS assigns a case number which is provided to the customer
           o	 OGIS asks for signed consent from customers who are FOIA requesters that
              allows OGIS to discuss the requests with the appropriate agencies without
              violating the Privacy Act
           o	 An OGIS staff member is assigned the case and works to resolve the dispute
           o	 General information about the case (excluding any personally identifying
              information) is provided publicly in the OGIS Case Log at OGIS's website

    2.	 Fact-finding:

           o	 OGIS reviews the information provided, typically including a description of the
              dispute and copies of relevant correspondence, and contacts the customer for
              clarification if necessary
           o	 OGIS contacts the agency FOIA Public Liaison (FPL) to describe the dispute and
              may be directed to FOIA professionals within the agency to further discuss the
              issue and gather facts;
           o	 OGIS determines whether mediation or facilitation is appropriate to resolve the
              dispute

    3.	 Resolving the dispute:

           a.	 Facilitation
                   OGIS communicates any information one party approves to share with the
                       other, including potential solutions either party may suggest
                   OGIS may suggest options for resolution
                   For facilitation to succeed, the parties must agree to the resolution of the
                       dispute

           b.	 Mediation
                  Each party must agree to participate in formal mediation
                  OGIS will arrange mediation through a neutral third party who has been
                      agreed upon by all parties to the dispute; this person may be a Federal
                      employee or a private mediator who is trained in mediation
                  Any costs associated with the mediation will be covered by OGIS
                  For mediation to succeed, the parties must agree to the resolution of the
                      dispute

           c.	 Ombuds services
                                              Page 10
                           National Archives and Records Administration

 
                                                                          OIG Audit Report No. 12-14


                      OGIS answers queries about the FOIA process and provides general FOIA
                       assistance
                      OGIS logs and addresses observations, complaints and suggestions on
                       FOIA issues

    4.	 Closing the case:
           o	 If the parties agree that facilitation or mediation has resolved the dispute, OGIS
               will close the case and note accordingly in the file and the OGIS Case Log, and
               may follow up to confirm that any agreed-upon action is taken
           o	 If both parties cannot agree whether facilitation or mediation resolved the dispute,
               or agree that the dispute is not resolved, OGIS will close the case and note it was
               not resolved

OGIS cases were open an average of approximately 50 working days in FY 2011. Although
OGIS has no investigatory or enforcement power and cannot compel an agency to release
documents, the Office successfully facilitated resolutions in over two-thirds of the cases
involving a true dispute in FY 2011.

Training is also an OGIS priority and supports OGIS’s role of providing mediation services to
FOIA requesters and agencies. Goals in providing training are:

      To recognize and support the statutory role of FOIA Public Liaison’s to help resolve
       disputes between requesters and agencies;
    	 To replicate OGIS’s success in resolving FOIA disputes in agencies Government-wide;
    	 To educate FOIA professionals about the OGIS process; and
    	 To prepare key agency FOIA professionals to better work with OGIS in resolving FOIA
       disputes.

In its first year, OGIS collaborated with Alternative Dispute Resolution professionals from
several agencies to create a “Dispute Resolution Skills Training for FOIA Professionals”
program for FPL’s. In its second year, OGIS increased the frequency of the program’s offering
to six times a year and expanded the training audience. Although there are other venues through
which FOIA professionals may pay to be trained in alternative dispute-resolution skills, OGIS
offers this training free of charge, and it is unique and innovative in providing it in the FOIA
context. OGIS presented five “Dispute Resolution Skills Training for FOIA Professionals”
sessions in FY 2011. OIG reviewed OGIS’s training materials for this training program and
notes that they described alternative dispute resolution techniques and included class exercises.

OGIS stated this type of training they provide is important because it is much more likely that
agency FOIA staff will be asked to work with OGIS to resolve disputes through informal
methods than through formal mediation.




                                              Page 11
                           National Archives and Records Administration

 
                                                                         OIG Audit Report No. 12-14


Recommending policy changes to Congress and the President

The Deputy Director of OGIS stated that OGIS makes two types of recommendations:
administrative recommendations that are sent to the White House, and legislative
recommendations that are sent to Congress. The Deputy Director of OGIS also stated that the
Office of Management and Budget (OMB) must review legislative recommendations before they
are sent to Congress. Since its inception, OGIS sent administrative recommendations to the
White House on one occasion on February 16, 2011. OGIS also sent recommendations to
Congress on one occasion as well, on April 24, 2012. The OIG reviewed the recommendations
to both the White House and Congress and notes they identified issues OGIS encountered while
performing its work and made recommendations to resolve these issues which serve to improve
the administration of FOIA.

Some of the recommendations include:

       Providing assistance for requesters seeking their own records under the Privacy Act;
       Creating a Privacy Act routine use to streamline the way in which agencies share
        information with OGIS;
       Encouraging agency participation with the government-wide FOIA Module;
       Facilitating the coordination of inter-agency communication for government-wide FOIA
        requests; and
       Recommending dispute-resolution skills training for FOIA professionals.




                                             Page 12
                          National Archives and Records Administration

 
                                                                           OIG Audit Report No. 12-14


2. The average number of cases closed by OGIS decreased due to a
   technological impediment.
The average volume of cases closed by OGIS decreased from 93 cases per quarter in calendar
years (CY) 2010 through 2011 to 26.5 cases per quarter in CY 2012. The volume of cases closed
by OGIS should remain consistent barring significant changes in the FOIA community or OGIS
itself. Our review revealed that the cause of this decline was attributed to a technological
impediment associated to scanners used by OGIS staff to input documents into a new case
management system introduced by OGIS in the fourth quarter of CY 2011. Due to this
technological impediment OGIS’s process to close cases has been impeded.

The average number of cases closed by OGIS decreased from 93 cases per quarter from the first
quarter of CY 2010 through the third quarter of CY 2011 to 26.5 cases per quarter from the
fourth quarter of CY 2011 through the first quarter of CY 2012. The average number of cases
closed by OGIS should remain consistent barring significant changes in the FOIA community or
OGIS itself. Our review revealed that a new case management system introduced by OGIS in
the fourth quarter of CY 2011 required using a scanner to scan all documents related to each
OGIS case before the case could be officially closed. The number of pages able to be scanned
per minute by OGIS was limited, which eventually impeded OGIS’s ability to close cases in a
timely manner. Due to the slowness of the scanner, the average number of cases closed by OGIS
decreased by over 72% from the first quarter of CY 2010 through the third quarter of CY 2011
and the fourth quarter of CY 2011 through the first quarter of CY 2012.

According to OGIS’s proposed rule, after a customer contacts OGIS requesting assistance, the
Office reviews the request and any enclosures or attachments submitted. OGIS then enters the
request into its case management system that assigns the case a number. OGIS acknowledges
receipt to the customer, contacts the customer within four days of receipt to confirm receipt, and
begins fact-finding.

OGIS publishes a case log on its website, which reports to the public the case number, date of
receipt, a description of the nature of the issue, a description of the status of the case, and the
closing date for each case. From the time OGIS was opened in September of 2009 through the
start of the second quarter of CY 2012 the Office opened 930 cases. During this same time
period OGIS closed 738 of these cases. From the first quarter of CY 2010 through the third
quarter of CY 2011 OGIS closed an average of 93 cases per quarter. However, beginning in the
fourth quarter of CY 2011 through the first quarter of CY 2012 the average number of cases
closed per quarter dropped to 26.5.




                                               Page 13
                            National Archives and Records Administration

 
                                                                               OIG Audit Report No. 12-14


                                           Opened           Closed

            150


            100


             50


              0
                   Q3    Q4     Q1    Q2     Q3        Q4      Q1    Q2   Q3     Q4    Q1
                     2009                2010                         2011             2012
                                                                                               
                                                    

                   Figure 2: OGIS Cases Opened and Closed by Quarter CY 2009 – 2012 


Audit interviews with OGIS’s Director and Deputy Director revealed that the decrease in
average cases closed per quarter occurred directly following the installation of a new case
management system called the OGIS Access System (OAS) and a new OGIS website. After a
year of development the case management portion of the OAS was launched by OGIS in October
of 2011, with the website launching November 28, 2011. OAS helps OGIS manage cases,
allows OGIS customers to submit online requests for assistance and check the status of their
requests, and provides requesters and agencies with tools and tips for navigating the FOIA
process. OAS’s built-in workflows and document repositories streamline and increase the
transparency of OGIS’s work.

OGIS’s Deputy Director stated that the Office requires most of the documents associated with a
case to be scanned or uploaded into OAS using a scanner before the case can be officially closed.
This procedure was initiated to ensure that OGIS staff would always have access to scanned case
documentation associated with all closed cases should any questions be posed to OGIS regarding
the case. However, in order to scan the documents into OAS the Office currently depends on
two scanners: one scanner can scan 25 pages per minute while the second scanner can scan only
4 pages per minute. Because all documentation associated with a case must be scanned into
OAS, as well as the fact that cases can have large amounts of documents associated with them,
OGIS has not been able to scan the documents in a timely manner. Therefore, the slowness of
the scanners contributed to a bottleneck that hindered the ability of OGIS to close cases in a
timely manner.

In 2010 and 2011, OGIS requested that the scanner function on its copier be connected to enable
more efficient and effective scanning, but learned that NARA does not allow this scanner
function to be utilized. OGIS plans to purchase a more effective scanner in FY 2012.




                                               Page 14
                            National Archives and Records Administration

 
                                                                        OIG Audit Report No. 12-14


Recommendation

1.	 We recommend the Office of Government Information Services (OGIS) continue to work
    with NARA’s IT Infrastructure Support Division (BT) to procure a scanner capable of
    handling the needs of OGIS.


Management Response

Management concurred with the recommendation.




                                            Page 15
                         National Archives and Records Administration

 
                                                                          OIG Audit Report No. 12-14


3. Additional resources could significantly improve OGIS’s ability
   to address and meet its mission.
While OGIS is currently able to meet its mission, additional resources would allow the Office to:
1) have a more robust program to review FOIA policies, procedures and compliance of agencies
and 2) adjust the roles of OGIS staff to segregate OGIS staff working with agencies who request
OGIS assistance from OGIS staff reviewing agencies’ FOIA policies, procedures, and
compliance with FOIA. A lack of resources, specifically a lack of staff, prevented OGIS from
implementing modifications to its program they believe would improve the effectiveness of the
Office.

Some of the responsibilities Congress directs OGIS to perform include reviewing agency FOIA
policies and procedures, reviewing agency FOIA compliance, and offering mediation services to
resolve disputes between FOIA requesters and agencies as an alternative to litigation. OGIS
officials believe these mandates fall into two basic areas and have created a two-prong statutory
mission: (1) review agencies FOIA policies, procedures and compliance, and (2) offer mediation
services to resolve disputes between FOIA requesters and Federal agencies.

Draft or Implement a More Robust Review Process

OGIS had a process in place during the audit to conduct reviews of agencies’ FOIA policies,
procedures and compliance. The process included conducting detailed analysis of Federal
agencies’ Annual FOIA Reports and Chief FOIA Officer Reports to identify strengths and
weaknesses in agencies’ FOIA policies and procedures. Also, OGIS worked collaboratively with
agencies to conduct reviews of FOIA policies and practices, including reviewing the agency’s
FOIA regulations.

OGIS’s Director and Deputy Director stated that they would like to draft procedures to create a
more robust program to review agency’s FOIA policies, procedures and compliance. These
procedures would incorporate procedures and processes similar to what NARA’s Information
Security Oversight Office (ISOO) employs to assess agencies’ security programs. OGIS plans to
build its review program using ISOO’s framework as a foundation to review agencies’ FOIA
policies and procedures to conduct on-site interviews and document reviews to monitor agency
FOIA compliance. OGIS’s Director stated a lack of staff prevented OGIS from creating a more
robust review program.

Modify OGIS’s Review Process

OGIS identified an inherent tension between its two statutory missions: (1) to review agencies
FOIA policies, procedures and compliance, and (2) to offer mediation services to resolve
disputes between FOIA requesters and Federal agencies. Although these two missions are
interrelated they require separate and distinct methodologies to be properly implemented.

OGIS stated that in implementing its two-prong mission it recognizes that agencies may be
reluctant to contact OGIS for assistance with resolving a dispute because the agencies believe
                                              Page 16
                           National Archives and Records Administration

 
                                                                          OIG Audit Report No. 12-14


OGIS may use information learned during this process to negatively report on the agencies’
FOIA policies, procedures or compliance. Because of this potential issue, OGIS has determined
that its review mission would best be implemented by a separate team of OGIS staffers who do
not handle complaints, but instead assess agencies’ FOIA policies, procedures and compliance.
Given OGIS’s small staff, the establishment of such a team was not deemed feasible as of the
end of fieldwork.

OGIS’s initial authorization was for six staff members; however it asked for and was granted an
increase of one full-time equivalent (FTE) who was hired in May 2010. OGIS asked for
additional FTE's as part of the FY 2012 budget initiative, however this request for additional
FTE’s was not approved.


Recommendation


2.	 We recommend the Director of the Office of Government Information Services (OGIS),
    through the budget process, define the resources necessary to better accomplish the statutory
    requirements of the Office. If NARA budget, staffing limitations, and competing priorities
    negate NARA's ability to fund the requirements of OGIS, we recommend this condition be
    reported to the appropriate external stakeholders.


Management Response

Management concurred with the recommendation.

 

 

 

 

 

 

 

 

 

 


                                              Page 17
                           National Archives and Records Administration

 
                                                                  OIG Audit Report No. 12-14


 

Appendix A – Acronyms and Abbreviations

BT      IT Infrastructure Support Division 
CFPB    Consumer Financial Protection Bureau
CY      Calendar Year
DOJ     Department of Justice
FOIA    Freedom of Information Act
FPL     FOIA Public Liaison
FTE     Full-Time Equivalent
FY      Fiscal Year
ISOO    Information Security Oversight Office
IT      Information Technology
NARA    National Archives and Records Administration
OAS     OGIS Access System
OGIS    Office of Government Information Services
OIG     Office of Inspector General
OMB     Office of Management and Budget
USC     United States Code
USPS    United States Postal Service
VA      Department of Veterans Affairs




                                      Page 18
                   National Archives and Records Administration

 
                                                              OIG Audit Report No. 12-14


Appendix B – Management’s Response to the Report




                                  Page 19
               National Archives and Records Administration

 
                                                                          OIG Audit Report No. 12-14


Appendix C – Report Distribution List

Archivist of the United States (N)

Deputy Archivist

Chief Operating Officer

Office of Government Information Services




                                              Page 20
                           National Archives and Records Administration

 
                                                              OIG Audit Report No. 12-14


Appendix D – OGIS Best Practices Chart Page 1




                                  Page 21
               National Archives and Records Administration

 
